                                                        ...




.                          luation




             DOD CONTRACT SHIP FUELS (BUNKER FUEL-S)
                      ACQUISITION PROCESS



    Report Number 98-141                      May 29, 1998




                 Office of the Inspector General
                     Department of Defense
  Additional Information and Copies

  To obtain additional copies of this evaluation report, contact the Secondary
  Reports Distribution Unit of the Analysis, Planning and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit
  the Inspector General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions for Evaluations

  To suggest ideas for or to request future evaluations, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                    OAIG-AUD (ATIN: APTS Evaluation Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arlington, Virginia 22202-2884




DESC                Defense Energy Support Center
DFAS                Defense Finance and Accounting Service
GAO                 General Accounting Office
MOU                 Memorandum of Understanding
MSC                 Military Sealift Command
OMB                 Office of Management and Budget
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                               4OOARMYNAVYDRIVE
                          ARLINGTON, VIRGINIA 222024884



                                                                         May 29, 1998

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               COMMANDER, DEFENSE ENERGY SUPPORT CENTER

SUBJECT: Evaluation Report on the DOD Contract Ship Fuels (Bunker Fuels)
         Acquisition Process (Report No. 98-141)


       We are providing this evaluation report for review and comment. This is the
second of two reports on bunker fuels. We conducted the evaluation in response to a
complaint made to the Defense Hotline. Management comments were considered in
prepaxing the final report.

       DOD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Energy Support Center comments were partially responsive. As a result
of management comments, we revised the finding and redirected and renumbered draft
report Recommendation 1. to the Director, Defense Finance and Accounting Service,
as Recommendations l.c. and 1.d.; added Recommendations 1.a. and 1.b.; deleted
Recommendation 3.; and revised and renumbered Recommendation 4. as 2.a. and 2.b.
We request that the Director, Defense Finance and Accounting Service, provide
comments on the material control weakness discussed in Appendix A and on
Recommendations 1.a., 1.b., 1.c., and 1.d. by July 30, 1998. We also request that
the Commander, Defense Energy Support Center, provide additional comments on
Recommendation 2.b. by July 30, 1998.

        We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Mr. John A. Gannon at (703) 604-9176
(DSN 664-9176), email <jgannon@dodig.osd.mil>         , or Lieutenant
Colonel Thomas P. Toole, U.S. Air Force, at (703) 604-9177 (DSN 664-9177), email
 < ttoole@dodig.osd.mil > . See Appendix K for report distribution. The evaluation
team members are listed inside the back cover.




                                        Robert f Lieberman
                                     Assistant Inspector General
                                             for Auditing
                           Office of the Inspector General, DOD

Report No. 98-141                                                          May 29,1998
  (Project No. 7LB-8006)

       DOD Contract Ship Fuels (Bunker Fuels) Acquisition Process


                                  Executive Summary

Introduction. This evaluation was performed in response to a complaint to the
Defense Hotline. This report is the second of two reports on ships’ fuels, commonly
known as bunker fuels. The Defense Energy Support Center (formerly the Defense
Fuel Supply Center), which manages the bunker fuels program, funded purchases of
more than $59 million in the 12-month period ending April 30, 1997. The complainant
alleged that U.S. Government ships’ officers did not correctly complete standard
material ordering and receiving forms when purchasing bunker fuel from DOD contract
vendors and that the Defense Finance and Accounting Service was paying bunker fuel
vendor bills late. Additionally, the complainant alleged that Government ships’
officers were wasting DOD funds by not purchasing bunker fuel from DOD contract
vendors at those locations where contract fuel was available. This report addresses the
first two allegations; a separate report addresses the third.

Evaluation Objectives. The evaluation objectives were to determine whether fuel
billing and payment processes were effectively and efficiently managed. In addition,
we evaluated the adequacy of the Defense Finance and Accounting Service and the
Defense Energy Support Center management control programs as they applied to the
evaluation objective. We also evaluated the Defense Hotline allegations to determine
whether they were substantiated and, if substantiated, whether they were materially
significant.

Evaluation Results. The Defense Finance and Accounting Service management
controls over the bunker fuels bill disbursement process needed improvement. The
Defense Finance and Accounting Service disbursing officers were paying bunker fuel
invoices worth more than $25,000 without using Government-certified and -controlled
receipt data to verify that quantities of fuel billed matched quantities of fuel received.
Additionally, one of four bunker fuel customer organizations was not reconciling its
bunker fuel transactions using Government-certified sales receipt data, and two
organizations were reconciling only a portion of their transactions using Govemment-
controlled sales receipt data. Also, the Defense Energy Support Center had
implemented a bunker fuel electronic sales data collection system, known as
“Magstrip,” that does not comply with the Comptroller General’s requirement that
electronic financial management systems include data authentication and electronic
certification capabilities. As a result, bunker fuel bills worth more than $29 million, or
approximately 50 percent of total annual disbursements, were paid without quantities
billed being matched to quantities received. For details on the evaluation results, see
Part I. See Appendix A for details on the management control program. We partially
substantiated the Defense Hotline allegations, but we did not consider them materially
significant. The detailed results of our evaluation of the allegations are discussed in
Appendix D.
Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service, work with the Director, Defense Energy Support Center and
bunker fuel customers to ensure that disbursing officers at the Defense Finance and
Accounting Service are provided proper bunker fuel receipt data for use in prepayment
validation of invoices over $25,000. We also recommend that the Director, Defense
Finance and Accounting Service discontinue the use of statistical sampling as a pre- or
postpayment disbursement control for invoices exceeding $2,500 and to develop
guidance to assist DOD customer organizations in the collection and transmission of
bunker fuel receipt data to support the Defense Finance and Accounting Service
disbursement and reconciliation internal control process. Additionally, we recommend
that the Director, Defense Energy Support Center establish a memorandum of
understanding with the Army Corps of Engineers and the U.S. Coast Guard that clarify
bunker fuel bill reconciliation management control responsibilities. We also
recommend that the Director, Defense Energy Support Center continue to explore
electronic data colIection technology alternatives to identify and implement an
appropriate electronic receipt data collection system.

Management Comments. The Commander, Defense Energy Support Center,
comments were generally responsive but stated that the Defense Finance and
Accounting Service, rather than the Defense Energy Support Center, should be the
primary organization held responsible for ensuring that disbursement internal controls
are effective. The commander further stated that the Defense Energy Support Center
had previously evaluated alternative electronic commerce techniques and found them to
be cost-prohibitive.

The Director, Defense Finance and Accounting Service, concurred with the draft
report. However, additional evaluation work and interim coordination of Defense
Energy Support Center comments resulted in the Director, Defense Finance and
Accounting Service, submitting additional comments (Appendix I). Those comments
requested that the Office of the Inspector General obtain a written opinion from the
General Accounting Office on whether existing bunker fuel disbursement internal
control procedures were consistent with the Comptroller General’s guidance.

Although not required, we received comments from the Commander, Military Sealift
Command, who agreed to develop appropriate procedures for collecting and
transmitting bunker fuel receipt data and quickly took steps to implement the
procedures*
See Part I for a summary of management comments and Part III for the complete text
of management comments.

Evaluation Response. Management comments were generally responsive to the
finding. We agree with the Defense Energy Support Center comments that the Defense
Finance and Accounting Service has primary responsibility for establishing effective
bunker fuel bill disbursement internal controls. We have therefore revised and
expanded the finding and redirected the first recommendation to the Director, Defense
Finance and Accounting Service. We requested a General Accounting Office opinion
in a March 17, 1998, memorandum, but had not yet received a reply. The Defense
Finance and Accounting Service is requested to provide comments on the revised
recommendations and the Defense Energy Support Center is requested to provide
additional comments by July 30, 1998.



                                           ii
Table of Contents



Executive Summary                                                           i

Part I - Evaluation Results
      Evaluation Background                                             2
      Evaluation Objectives                                             4
      Bunker Fuel Bill Disbursement Process Management Controls         5

Part II - Additional Information
      Appendix A. Evaluation Process
        Scope and Methodology
        Management Control Program                                     :4
      Appendi;; B. Summary of P;;ior Coverage
      Appendix C. Policy Requirements                                  :;
      Appendix D. Evaluation of Allegations                            20
      Pppendix E. Memorandum for Commander, Defense Fuel Support
                   Center (now Defense Energy Support Center)          22
      Appendix F. Memorandum for Commander, Military Sealift
                   Command                                             24
      Appendix G. Memorandum for Director, Defense Finance and
                   Accounting Service                                  26
      Appendix H. Memorandum for Director, Defense Finance and
                   Accounting Service                                  29
      Appendix I. Memorandum from Defense Finance and Accounting
                   Service                                             31
      Appendix J. Memorandum for Assistant Comptroller General,
                   General Accounting Office
      Appendix K. Report Distribution                                  ;:

Part III - Management Comments
      Defense Fuel Supply Center (now Defense Energy Support Center)
         Comments                                                      38
      Military Sealift Command Comments                                41
      Defense Finance and Accounting Service Comments                  42
Part I - Evaluation Results
Evaluation Background
    This evaluation was initiated as a result of a complaint made to the Defense
    Hotline on November 18, 1996. The complainant alleged that Government
    organizations purchasing bunker fuel from fuel sources contracted by the
    Defense Fuel Supply Center (now the Defense Energy Support Center @XX])
    were not completing bunker fuel ordering and receiving forms correctly. The
    complainant further alleged that because ordering procedures were not
    completed correctly, the Defense Finance and Accounting Service (DFAS) was
    unable to pay contract fuel vendors in a timely manner. Additionally, the
    complainant alleged that officers on Government ships were wasting DOD funds
    by not always purchasing bunker fuel from less expensive DESC contract
    vendors at locations where contract fuel was available. This report addresses
    the first two allegations; a separate report addresses the third.

    Bunker Fuel Program. A “bunker” is an onboard storage compartment used
    as the direct source of fuel for ship’s propulsion system. DOD Manual
    4140.25-M, “DOD Management of Bulk Petroleum Products, Natural Gas and
    Coal,” June 22, 1994, defines bunker fuel as fuel loaded into a ship for its own
    use rather than as cargo. The Commander, DESC, at Fort Belvoir, Virginia, is
    the DOD bunker fuel acquisition program manager. The contract bunker fuel
    program includes 72 contracts that offer DOD and other authorized customers
    fuel priced at pre-negotiated rates in 155 ports worldwide. DESC contract
    bunker fuel sales to DOD vessels and to some non-DOD vessels operated by the
    Army Corps of Engineers, Military Sealift Command (MSC) contract charters,
    and the U.S. Coast Guard total more than $59 million annually. MSC is a
    Command under the Chief of Naval Operations and also reports to the
    Commander in Chief, U.S. Transportation Command.

    DESC Bunker Fuel Marketing Strategy. A DESC management objective is
    to make less expensive contract bunker fuel available to as many Government
    customers as possible. In April 1996, to identify ports where new or increased
    bunker fuel contract coverage may be cost-effective, DFAS Columbus Center
    centrally began paying some bills for open market transactions and providing
    bunker fuel demand data to DESC. Open market transactions are acquisitions
    made from bunker fuel vendors not under contract with DESC at the location
    where the fuel was purchased.

    The DOD Disbursement Management Control Process. The DOD
    disbursement management control system consists of a system of pre- and
    postpayment reviews of Government-certified and -controlled receipt data.

            Prepayment Reviews. Whenever and wherever a product or service is
    purchased, a Government official certifies, by signature, on an appropriate sales
    receipt or receiving report that a specific quantity of an item has been received,
    inspected (if appropriate), and accepted. DOD Regulation 7000.14-R,
    “Financial Management Regulation, n February 1996, assigns responsibility for
    the accuracy of receiving report data to the individual whose signature appears
    on the sales receipt or receiving report. The Government certifying official
    forwards the original receipt document or Government-controlled electronic
    receipt data stream to DFAS disbursing officers to establish an “obligation”
    ledger for the transaction. Title 7, Chapter 7, of the General Accounting Office


                                        2
(GAO) “Policy and Procedures Manual,” May 1993 (the GAO Manual), assigns
disbursing officers the responsibility and liability for matching vendor invoices
with Government-certified and -controlled receipt data prior to making any
payments. However, under a procedure known as “fast pay,” the GAO Manual
does permit Government agencies to pay vendor invoices that do not exceed
$25&)00 and that meet certain other restrictions without reviewing Govemment-
certified and -controlled evidence of receipt prior to paying. Appendix C has
additional details on policies and regulations.

         Postpayment Reviews. On a monthly basis, the DFAS centers prepare
“interfund” billing summaries in accordance with DOD Manual 4000.25-7-M,
“Military Standard Billing System,” January 1995 (the DOD Manual), and
forward them to their customers. The DOD Manual requires customer
organizations to reconcile interfund billing summaries by matching original
receipts or Government-certified and -controlled receipt data to each of the
transactions summarized on the interfund bill. If no mismatches are found,
customer officials certify that billing data is correct as stated and forward the
certification to the DFAS center. If mismatches are found, customers request
that the DFAS disbursing officer reconcile the mismatches. The customers then
certify the accuracy of the remaining transactions and forward the certification
to the DFAS disbursing officer.

Electronic Commerce in the Bunker Fuel Financial Management System.
The GAO Manual encourages Government agencies to integrate electronic
commerce techniques into agency financial systems wherever it is appropriate
and cost-effective to do so.

         Prepayment. When electronic technologies are used to transmit
transaction data to disbursing officers for use in verifying vendor invoices for
payment, data systems must meet the Comptroller General’s criteria provided in
the GAO Manual. The criteria include the general requirement that disbursing
officers have reasonable assurance that electronic messages are complete and
correct before using the electronic data to verify invoices. Additionally,
although the systems and processes for transmitting data for use in certifying
vouchers for disbursement may vary, the disbursing officer is ultimately
responsible and liable for the accuracy of payments. Therefore, disbursing
officers must have reasonable assurance that the electronic systems, processes,
and controls used to forward financial data to disbursing offices are working and
reliable. Electronic financial systems must also be designed to have the controls
to protect data from unauthorized access, whether inadvertent or deliberate.
The GAO Manual states that electronic financial system procedures that
strengthen controls are preferred over those that involve relaxing management
controls.

        Postpayment. The GAO Manual permits Government agencies to
implement statistical sampling programs to select, after payment, vendor
vouchers for examination in support of the certification and disbursement
processes. The GAO Manual authorizes the use of statistical sampling for
vouchers not exceeding $2,500. When using an appropriate statistical sampling
technique, disbursing officers are permitted to certify vouchers for payment
without reviewing point of sale receipt data for those vouchers.



                                    3
Evaluation Objectives
     The evaluation objectives were to determine whether fuel billing and payment
     processes were effectively and efficiently managed. In addition, we evaluated
     the adequacy of the DFAS and the DESC management control programs as they
     applied to the evaluation objective. We also evaluated the Defense Hotline
     allegations to determine whether they were substantiated and, if substantiated,
     whether they were materially significant. Appendix A discusses the scope and
     methodology and the management control program, Appendix B summarizes
     prior coverage, and Appendix D discusses the specific results of our evaluation
     of the allegations made to the Defense Hotline.
           Bunker Fuel Bill Disbursement                              Process
           Management Controls
           The DFAS management controls over the bunker fuel bill disbursement
           process needed improvement. The DFAS disbursing officers were
           paying bunker fuel invoices worth more than $25,000 without using
           Govemment-certified and -controlled receipt data to verify that quantities
           of fuel billed matched quantities of fuel received prior to making
           disbursements. The condition existed because DESC and DFAS had
           implemented a bunker fuel electronic sales data collection system that
           did not comply with the Comptroller General’s requirement for
           electronic data collection systems to include data authentication and
           electronic certification capabilities. Furthermore, customer
           organizations had not implemented consistent receipt data collection
           procedures to effectively fulfill their bunker fuel bill reconciliation
           responsibilities. One bunker fuel customer organization was not using
           Government-certified and -controlled receipt data to reconcile vendor
           invoices that DFAS paid on the customer organization’s behalf. Two
           other organizations were using Government-certified and -controlled
           sales receipt data to reconcile only a portion of their vendor invoices.
           The condition was caused by a lack of clear DFAS guidance defining
           customer receipt data collection and transmission responsibilities. As a
           result, bunker fuel bill payments worth more than $29 million, or
           approximately 50 percent of total annual disbursements, were made with
           neither DFAS disbursing officers nor bunker fuel customers verifying
           that fuel quantities received matched quantities billed.


Bunker Fuel Billing and Disbursing Process
    Bunker Fuel Big         and Disbursing Process. A Government purchase order
    initiates each transaction of a bunker fuel contract. After fuel loading is
    complete, the responsible ship official certifies the quantity of fuel purchased by
    signing the appropriate sales receipt. Each vendor and responsible officer
    retains a copy of the sales receipt. The vendor then uses one of two processing
    systems to submit the invoice to DFAS Columbus Center for payment. A
    manual invoice processing system requires the vendor to mail or transmit a
    facsimile of the invoice and sales receipt to DFAS Columbus Center for its use
    in prepayment verification. The sales data was Government-certified, but not
    Government-controlled. An electronic invoice processing system, known as
    “Magstrip,” was implemented by DESC in early 1997. Magstrip requires the
    vendor to use Government-furnished hardware and software to electronically
    transmit invoice and receipt data to DFAS Columbus Center for its use in
    prepayment verification. The electronically transmitted receipt data is not the
    Government-certified sales receipt, nor is it Government-controlled.     In both the
    manual and electronic systems, if the vendor-provided receipt data matches the
    vendor’s invoice data, DFAS disbursing officers pay the vendor from the DESC
    bunker fuel revolving fund account.




                                         5
Bunker Fuel Disbursement      Process Management             Controls



      Each month, the DFAS Columbus Center sent bills to customer organizations
      for bunker fuel transactions paid from the DE!X revolving fund account.
      Customer organizations are required to reconcile DFAS billing data with
      Government-controlled and -certified sales receipts retained from the point of
      sale, providing management controls over both the vendor billing process and
      DFAS disbursing process. If Government-controlled and -certified receipt data
      are not used to reconcile DFAS bills, erroneous or fraudulent vendor bills or
      DFAS processing errors may not be detected. DOD customer organizations
      reimburse the revolving fund through electronic fund transfer, generally known
      as the interfund system. Figure 1 illustrates the bunker fuel payment and
      reconciliation processes.



                               I          ship accepts fuel
                                         and certifies receipt        I


                         /                                       ,\
             Vendor sends receipt data                                    ship retains copy of
              and invoice to DFAS                                             sales receipt
                                                                 1


                                                                 \                 I
             DFAS compares invoice                                    Ship provides receipt data
            to receipt and pays vendor                                to agency accounting office




      Figure 1. Manual DOD Bunker Fuel Prepayment                          Invoice Validation and
      Post-payment Reconciliation Processes

      Only the Navy was generally following the postpayment reconciliation process
      illustrated above. MSC (which is part of the Navy but also reports to the U.S.
      Transportation Command) was not following the process, and the Army Corps
      of Engineers and the Coast Guard were following the process for only a portion
      of their transactions.


Prepayment Controls

      The DFAS disbursing officers were paying bunker fuel invoices worth more
      than $25,000 without using Government-certified and -controlled receipt data to
      verify that quantities of fuel billed matched quantities of fuel received prior to
      making disbursements. The condition existed because Magstrip, used by DESC
      and DFAS, does not include data authentication and electronic certification




                                                  6
                      Bunker Fuels Disbursement Process Management Controls


    capabilities. Although the draft of this report focused primarily on the
    postpayment portion of the bunker fuel disbursement process, management
    comments and information provided by the GAO led us to conduct additional
    evaluation work. As a result, we revised the finding to include the prepayment
    disbursement process.

    Use of Government-Controlled Receipt Data. DFAS Columbus Center
    disbursing officers were using receipt data provided by vendors as a primary
    internal control over the bunker fuel disbursement process. The GAO Manual
    and Office of Management and Budget (OMB) Circulars A-127, “Financial
    Management Systems, n July 23, 1993, and A-123, “Management
    Accountability and Control,” June 21, 1995, require Government agencies to
    establish financial systems and controls, whether manual or electronic, that
    provide disbursing officers reasonable assurance that vouchers are accurate prior
    to payment. When sales receipts or receiving reports are in the possession of
    vendors prior to being forwarded to DFAS disbursing officers, the risk that data
    contained in the reports could be altered is increased. Because DFAS did not
    require ship officials to forward receipt data directly to DFAS, disbursing
    officers were unable to verify the accuracy of vendor data prior to making
    payments.

    Use of Government-Certified Receipt Data. DFAS disbursing officers were
    validating bunker fuel invoices in excess of $25,ooO from vendors using
    Magstrip without first reviewing Government-certified receipt data to verify
    invoice accuracy. For vendors using Magstrip, DFAS had discontinued the
    requirement for them to forward copies of Government-certified receipt data to
    disbursing officers. DFAS disbursing officers were validating vendor invoices
    of all amounts using vendor-created electronic receiving reports that had been
    neither reviewed nor certified by an authorized Government official. Although
    the GAO Manual and OMB Circular A-125, “Prompt Payment,” December 12,
    1989, permit agencies to pay vendor invoices worth less than $25,000 without
    first reviewing appropriately certified receipt data, that practice is expressly
    prohibited when invoices are in excess of $25,000.


Postpayment Controls
    Customer organizations had not implemented consistent receipt data collection
    procedures to effectively fulfill their bunker fuel bill reconciliation
    responsibilities.

    Use of Statistical Sampling Techniques. DFAS disbursing officers were
    relying on postpayment statistical sampling techniques and customer
    reconciliation processes to identify inaccurate disbursements for invoices in
    excess of $2,500. In January 1997, in lieu of conducting 100 percent
    prepayment validation of Government-certified receipt data, DFAS authorized
    DESC to implement a statistical technique to identify a sample of bunker fuel
    vouchers for postpayment validation. DFAS officials stated that once vouchers
    were selected, the procedures required DESC, or a DESC contractor, to match
    original Government-certified receipts to DFAS disbursement records to assist
    DFAS in identifying and recovering overpayments that may have been made.


                                        7
Bunker Fuel Disbursement Process Management Controls


      The GAO Manual states that sampling techniques may be used for quality
      control purposes to assess the effectiveness of disbursement internal controls.
      However, it also states that postpayment sampling techniques may not be used
      in lieu of a 100 percent review of appropriate receipt data for any invoices that
      exceed $2,500. Because most bunker fuel invoices exceed the $2,500
      threshold, we do not believe that the DESC-implemented sampling technique is
      an appropriate internal control for the bunker fuel bill disbursement process.

      Reliance on the Customer Postpayment Bill Reconciliation Process. The
      DFAS decision to eliminate prepayment review of Government-certified sales
      receipts was made, at least partiahy, because of an assumption that customer
      organizations were exercising effective management controls over the
      postpayment reconciliation process. However, customer interfund bill
      reconciliation processes were not adequate. Although the Navy was effectively
      reconciling 100 percent of its bills, Navy standards for resolving mismatches
      between sales receipts and the DFAS inter-fund bills were questionable. MSC
      was not reconciling DFAS interfund bills against appropriate receipt data. The
      Army Corps of Engineers and the Coast Guard were effectively reconciling only
      a portion of their bunker fuel transactions. Our April 28, 1997, memorandum
      to the Commander, DESC (Appendix E), notified the commander of the
      inconsistencies in customer postpayment reconciliation processes. The
      following are the details of customer interfund bill reconciliation programs.

             Navy Reconciliation Procedures. Ship officers were collecting and
     retaining Government-certified bunker fuel sales receipts and using the Navy
     Energy Utilization Reporting System to electronically transmit data to the Navy
     Standard Accounting and Reporting System, which automatically compares the
     receipt data with the DFAS monthly interfund bills and produces an error listing
     when differences are identified. From May 1996 through April 1997, the
     DFAS payment office processed invoices valued at nearly $16 million for Navy
     bunker fuel purchases.

     In our opinion, the Navy’s automated reconciliation system, implemented in
     October 1996, is an excellent bunker fuel management control tool. However,
     when the Navy’s automated reconciliation system identified differences between
     DFAS interfund bills and receipt data, Atlantic and Pacific Fleet financial
     managers applied arbitrary standards in deciding whether to notify DFAS
     Columbus Center of mismatches. As a result, the Navy did not always request
     that DFAS research mismatches between Navy sales receipts and DFAS
     interfund bills to determine which information was correct.

     The Atlantic Fleet reconciliation standard allowed amounts from Navy sales
     receipts and DFAS interfund bills to differ by up to 5 percent before requesting
     that DFAS Columbus Center confirm which was correct. If the Atlantic Fleet
     sales receipt and interfund bill amounts differed by less than 5 percent and fleet
     managers could not resolve the mismatch using fleet resources, fleet financial
     managers accepted the DFAS interfund bill amounts as correct and adjusted
     Navy ledgers. Therefore, because some Atlantic Fleet bunker fuel amounts
     exceeded $200,000, differences of $10,000 or more may not have been
     accurately reconciled.
                   Bunker Fuels Disbursement Process Management Controls


The Pacific Fleet used unwritten qualitative criteria in deciding whether to
request that DFAS Columbus Center review mismatches between Navy sales
receipts and DFAS interfund bills. If Pacific Fleet managers felt that the
difference was small enough not to warrant a review effort, they did not request
DFAS assistance in reconciling the amount. In those cases, fleet managers
accepted the DFAS interfund bill amounts as correct and adjusted Navy ledgers.
As a result, the Pacific Fleet routinely accepted an unknown number of
inter-fund bill amounts that Navy sales receipts might have indicated were
inaccurate.

The criteria used by the Navy could allow errors and fraud to occur undetected
and weaken internal management controls. A dollar threshold would be a more
effective method for determinin g which bunker fuel transaction mismatches the
Navy should refer to DFAS for resolution. The specific dollar amount of the
threshold should be commensurate with the Navy assessment of risk and the
costs associated with processing referrals to DFAS.

         MSC Reconciliation Procedures. MSC was not using Govemment-
certified and -controlled sales receipts to reconcile bunker fuel interfund bills.
The condition occurred because MSC ships did not forward sales receipts or the
data from those receipts to the MSC comptroller office for use in reconciling
monthly DFAS interfund bills. Instead, MSC was using historical fuel
consumption data to estimate how much fuel ships might consume in covering
lmown distances and then comparing those estimates to the monthly DFAS
interfund bill. As a result, MSC was unable to accurately reconcile its annual
fuel purchases, valued at more than $29 million. Figure 2 illustrates the MSC
bill reconciliation process. For those vendors using Magstrip, there was no
DFAS prepayment review of Government-certified sales receipts.


                                  Ship accepts fuel




       Vendor sends receipt                           ship retaiJls copy of
       data and invoice to DFAS                           sales receipt




Figure
     2. MSC Bunker Fuel Postpayment Reconciliation Process



                                          9
Bunker Fuel Disbursement Process Management Controls


      Our April 4, 1997, memorandum to the Commander, MSC (Appendix F),
      highlighted the absence of Government-certified and -controlled sales receipts,
      or the data from those sales receipts, in the MSC reconciliation process and
      requested that MSC promptly implement procedures to collect and use
      Government-certified and -controlled receipt data to reconcile monthly DFAS
      interfund bills. In its June 10, 1997, response memorandum (see Part JJJ)?
      MSC agreed to develop and implement a method to collect and retain receipt
      data from the point of sale for use in verifying the accuracy of its interfund
      bills.

               Army Corps of Engineers. We interviewed disbursing officials at six
      Army Corps of Engineers Districts. Five disbursing officials stated that they
      compared the sales receipts for the Corps of Engineers ships to monthly DFAS
      bills. The remainin g district disbursing official stated that his district did not
      use sales receipts or similar source data to reconcile DFAS bill accuracy. The
      official further stated that his district simply accepts the DFAS bills as correct.
      During the 1Zmonth period of May 1996 through April 1997, DFAS Columbus
      Center processed invoices valued at $6.1 million resulting from Army Corps of
      Engineers bunker fuel purchases.

               Coast Guard Reconciliation Procedures. The Coast Guard disbursing
      office in Chesapeake, Virginia, was using Government-certified and -controlled
      sales receipts to reconcile DFAS bills if the receipt data were readily available
      at the time the DFAS bills were received. However, when Govemment-
      certified and -controlled sales receipts were not available for use in reconciling a
      particular bill, the Coast Guard disbursing office requested copies of vendor-
      provided sales receipts from DFAS to use in reconciling DFAS bills. Coast
      Guard financial managers estimated that approximately 50 percent of sales
      receipts were not available for reconciliation with monthly DFAS bills.
      Therefore, about half of the Coast Guard bunker fuel transactions were paid
      without comparing Government-certified and -controlled receipt data against the
      DFAS bill amounts. As a result, billing errors or intentional overcharges could
      have occurred without being detected. From May 1996 through April 1997, the
      DFAS payment office processed invoices valued at about $7 million for Coast
      Guard bunker fuel purchases.


DFAS Guidance to DOD Customers
      The Director, DFAS, had not issued clear guidance to DOD customer
      organizations explaining their responsibilities for collecting and maintaining
      appropriate bunker fuel receipt data in support of the DFAS internal control
      process for disbursements. Specifically, customers were confused regarding the
      division of management control responsibilities as they related to the DFAS
      prepayment validation and customer postpayment reconciliation processes.
      Some DOD customers were not aware that DFAS paid invoices without
      reviewing Government-certified receipt data when vendors used Magstrip to
      submit invoices to DFAS, or that the customer postpayment reconciliation
      process was the sole DOD internal control over the accuracy of some
      disbursement data.



                                           10
                        Bunker Fuels Disbursement Process Management Controls


     The MSC Deputy Comptroller and some Navy comptroller personnel stated that
     they believed DFAS disbursing officers were responsible for matching vendor
     invoices against Government-controlled and -certified receipt data prior to
     payment. Consequently, MSC and Navy managers saw their role m the bunker
     fuel acquisition program as being a “secondary management control,” with the
     responsibility to ensure that DFAS interfund bills did not contain significant
     errors. Given that customers saw themselves as backup to DFAS, they did not
     consider it to be cost-effective to conduct 100 percent postpayment
     reconciliation of interfund bills. We brought this issue to the attention of the
     Director, DFAS, in an April 29,1997, memorandum (Appendix G) and
     suggested that DFAS develop guidance on the DOD interfund billing
     reconciliation process. Our December 4, 1997, memorandum to the Director,
     DFAS (Appendix H), noted that the implementation of Magstrip created a
     management control weakness in the DFAS prepayment validation process that
     was exacerbated by the management control weakness in the postpayment
     reconciliation process.


DFAS Guidance to Non-DOD Customers
     Although the DOD Manual provides receipt data collection guidance to DOD
     customers, it does not apply to the non-DOD organizations. Without
     memoranda of understanding (MOUs) that define responsibilities of non-DOD
     organizations for bunker fuel receipt data collection, non-DOD customers are
     not likely to forward Government-controlled and -certified receipt data to the
     DFAS drsbursing officer for use in conducting prepayment validations of vendor
     invoices. DFAS had not established MOUs to ensure that those non-DOD
     customer organizations billed directly by DFAS Columbus Center fully
     understood their roles and responsibilities for collecting and transmitting bunker
     fuel receipt data to support the DFAS disbursement internal control process.
     The GAO Manual assigns disbursing officers the responsibility for gaining
     reasonable assurance that financial data collection systems and controls used to
     support the disbursement process are accurate and reliable. Therefore, it is
     essential that DFAS establish MOUs with non-DOD customers to document
     agreement on data collection and management control responsibilities.


Interim Coordination on the Finding
     DESC Comments. DESC partially concurred with the finding. It
     acknowledged that DESC, DFAS, and the bunker fuel customers share
     responsibility for capturing, validating, and entering bunker fuel transaction data
     in the appropriate financial systems. However, DESC stated that it will
     formally request that DFAS take the lead in clarifying disbursement internal
     control guidance and developing effective internal control procedures.
     Additionally, DESC stated that it depends on customer postpayment
     reconciliation to ensure that the auantities of fuel billed by vendors and paid by
     DFAS were correct. DESC further stated that it had implemented a lti per&t
     postpayment review to ensure that payments were only made against valid
     invoices.


                                         11
Bunker Fuel Disbursement Process Management Controls


      Evaluation Response. We agree with DESC that DFAS should take the lead in
      clarifying bunker fuel disbursement internal control guidance and developing
      effective internal control procedures. Therefore, we revised the finding to
      include prepayment controls and redirected recommendations to the Director,
      DFAS, as appropriate. We recognize that the customer postpayment
      reconciliation p-s      is an important part of the bunker fuel disbursement
      internal control process. However, postpayment reconciliation alone does not
      provide effective internal control over the disbursement process. The GAO
      Manual requires that disbursing officers review Government-certified and
      -controlled receipt data prior to paying all vouchers more than $25,000.
      Additionally, the GAO Manual prohibits the use of statistical sampling
      techniques as a disbursement internal control for invoices in excess of $2,500.
      Therefore, the bunker fuel acquisition financial system is not compliant with the
      Comptroller General’s guidance and should be modified accordingly. As the
      bunker fuel contract administrator, DESC has the primary responsibility for
      ensuring that the bunker fuel acquisition financial system is effective and
      compliant with Comptroller General guidance. However, we also recognize
      that DESC must depend on the expertise and advice of DFAS to carry out its
      contract administration responsibilities. We concluded that DFAS
      misinterpreted Comptroller General guidance and, therefore, provided unsound
      advice.

      DFAS Comments. In its February 27, 1998, memorandum (Appendix I),
      DFAS did not concur with our interpretation of the GAO Manual in relation to
      Recommendations 1.a. and 1. b. DFAS officers asserted that, because bunker
      fuel customers certify receiving reports at the point of sale and give copies of
      those receiving reports to the vendors, disbursing officers should consider
      subsequent vendor-generated and -transmitted receipt data to be treated as
      Government-controlled and -certified.

      Evaluation Response. On March 17, 1998, we submitted a request for a
      formal GAO interpretation (Appendix I) of the GAO Manual as it applies to
      Recommendations l.a., l.b., l.c., and 2.b. An interpretation had not yet been
      received from GAO.


summary

     The DFAS management controls over the bunker fuel bill disbursement process
     needed improvement. DFAS prepayment controls permitted disbursing officers
     to pay bunker fuel invoices worth more than $25,000 without using
     Government-controlled and -certified receipt data to verify that quantities of fuel
     billed matched quantities of fuel received prior to making disbursements.
     Furthermore, DFAS guidance did not ensure that consistent receipt data
     collection and retention procedures were developed to support an effective
     postpayment reconciliation process. As a result, bunker fuel biIl payments
     worth more than $29 million, or approximately 50 percent of total annual
     bunker fuel bill disbursements, were made with neither the DFAS disbursing
     officer nor the customer verifying that fuel quantities received matched
     quantities billed. Because of the significance of the management control



                                          12
                      Bunker Fuels Disbursement Process Management Controls


    weakness, prompt corrective action is required to improve both the prepayment
    invoice validation process and the postpayment reconciliation management
    control process.


Recommendations, Management Comments, and Evaluation
Response
    Revised, Renumbered, Redirected, Added, and Deleted Recommendations.
    As a result of management comments, we revised, renumbered, and redirected
    draft report Recommendation 1. to the Director, Defense Finance and
    Accounting Service, as Recommendations l.c. and 1.d. We added
    Recommendations 1.a. and 1.b. We deleted Recommendation 3. We revised
    and renumbered Recommendations 2. and 4. as 2.a. and 2.b., respectively. We
    request that the Director, Defense Finance and Accounting Service, provide
    comments on Recommendations l.a., l.b., 1.c., and 1.d. by July 15, 1998.
    We also request that the Commander, Defense Energy Support Center, provide
    additional comments on Recommendation 2.b.

    1. We recommend that the Director, Defense Fmance and Accounting
    Service:

           a. Work with the Defense Energy Support Center and bunker fuel
    customers to ensure that Defense Finance and Accounting Service
    disbursing officers are provided Government-controlled and -certified
    bunker fuel receipt data for use in prepayment validation of invoices
    exceeding $25,000.

           b. Discontinue the use of statistical sampling techniques as a pre- or
    postpayment disbursement control for invoices exceeding $2,500.

           c. Develop guidance, in coqjunctiou with the Defense Energy
    Support Center, to assist DODcustomer organizations in the collection and
    transmission of bunker fuel receipt data in support of the Defense F?nance
    and Accounting Service Columbus Center disbursement and reconciliation
    internal control processes.

           d. Request the Defense Energy Support Center to establish
    memoranda of understanding with non-DODbunker fuel customers to
    document agreements to follow DODguidance for collection and
    transmission of bunker fuel receipt data in support of the Defense Finance
    and Accounting Service Columbus Center disbursement and reconciliation
    internal control processes.

    2. We recommend that the Commander, Defense Energy Support Center:

            a. Work with the Army Corps of Engineers and the U.S. Coast
    Guard to establish memoranda of understanding that clarify bunker fuel
    bill reconciliation management control responsibilities.




                                       13
Bunker Fuel Disbursement Process Management Controls


             b. Continue to explore electronic data collection technology
      alternatives to identify and implement a receipt data collection and
      trammission system that includes authentication and electronic certification
      capabilities.

      DISC Comments. DESC comments were partiaUy responsive. DESC
      concurred in part with draft Recommendation 2. and Recommendation 4.)
      renumbered as Recommendations 2.a. and 2.b., respectively. On
      Recommendation 2.a., DESC stated that it would enter into memoranda of
      understanding with the Army Corps of Engineers and the Coast Guard should
      DFAS recommend it. If DFAS requests, DESC agreed to establish memoranda
      of understanding with the non-DOD bunker fuel customers. On
      Recommendation 2.b.) DESC stated that it thoroughly investigated the available
      electronic data transfer technologies used for ground fuel transactions and that
      adapting those technologies would be cost-prohibitive.

      Evaluation Response. We agree that prior to DESC entering into memoranda
      of understanding with the Army Corps of Engineers and the Coast Guard, the
      Director, DFAS, needs to identify the specific receipt data collection and
      retention responsibilities necessary to support the DFAS disbursement internal
      control process for disbursements. However, because the Magstrip electronic
      data system is not compliant with Comptroller General guidance for
      implementing electronic technology in financial management systems, this
      necessitates a reevaluation of available technology. DESC needs to conduct a
      quantitative cost and benefit analysis to identify the most cost-effective
      technology available to comply with Comptroller General guidance. Therefore,
      we request that DESC reconsider its position on the use of Magstrip and provide
      additional comments in response to Recommendation 2.b.

      MSC Comments. Although not required to respond to the draft report, MSC
      provided comments. It agreed to develop procedures to collect bunker fuel
      receipt data from the points of sale to conduct postpayment reconciliation of
      DFAS interfund bills.

     Evaluation Response. We commend MSC comptroller personnel for providing
     an unsolicited response and for taking action to eliminate bunker fuel bill
     postpayment reconciliation deficiencies by working to develop procedures to
     capture and retain receipt data from the points of sale.




                                         14
Part II - Additional Information
Appendix A. Evaluation Process


Scope and Methodology
    Work Performed. We reviewed DOD procedures related to the bunker fuel
    acquisition process, payment of purchased fuel, and reconciliation of vendor
    invoices. We evaluated the DFAS bunker fuel payment system and related
    internal controls, including certifying vendor invoices for payment, recording
    payments, and submitting interfund bills to bunker fuel customers for the
    payment period May 1996 through April 1997. In addition, we interviewed
    personnel associated with the bunker fuel payment and reconciliation processes
    in the Office of the Assistant Deputy Under Secretary of Defense for Materiel
    and Distribution Management, DFAS, DESC, Army Corps of Engineers, Army
    Petroleum Office, Mili       Sealift Command, Navy Atlantic Fleet, Navy Pacific
    Fleet, Navy Petroleum %  0 ce, and the U.S. Coast Guard. Furthermore, we
    evaluated the specific allegations made by the complainant to determine whether
    they were substantiated and, if so, their materiality.

    DFAS Payment Workload Data. We reviewed DFAS payment workload data
    during the period May 1996 through April 1997. Over the 1Zmonth period,
    the DFAS Columbus Center processed 2,900 vendor invoices for payment.
    During the same period, invoices received were valued at about $59 million.
    Specifically, we reviewed Orders for Supplies and Services (DD Form 1155),
    Defense Fuels Accounting Management System sales reports, and selected data
    from the Fuels Division Monthly Production Report issued by DFAS Columbus
    Center. To evaluate the specific allegations made to the Defense Hotline, we
    reviewed workload data for 1,257 bunker fuel payments, worth $29 million,
    which were disbursed from September 1, 1996, through January 31, 1997.

    Use of Computer-Processed Data. To evaluate the number of late payments
    made to bunker fuel vendors, we relied on computer-processed data from the
    DFAS “Interest and Production Reporting System” and the DESC “Defense
    Fuel Automated Management System. n We did not perform tests of the
    systems’ general and application controls to confirm the reliability of the data.
    However, we did review some source documents to determine the accuracy of
    late payment data. We found no inaccuracies. The reliability of the data did
    not materially affect the results of our evaluation.

    Evaluation Type, Dates, and Standards. This economy and efficiency
    evaluation was performed from January 1997 through August 1997 and January
    1998 through March 1998, in accordance with standards implemented by the
    Inspector General, DOD. Accordingly, we included tests of the management
    controls considered necessary.

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within the DOD and the Coast Guard. Further details are
    available upon request.




                                        16
                                                 Appendix A. Evaluation Process


Management Control Program

    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizatrons to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended, and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed DFAS
    Columbus Center and DESC management control guidance on customer
    procedures for ordering, purchasing, and reconciling of commercial bunker fuel
    transactions. We also reviewed DFAS and DESC procedures as implemented
    by the Army Corps of Engineers, the Coast Guard, the Military Sealift
    Command, and the Navy.

    Adequacy of Management Controls. The DESC management control
    program was adequate as it applied to our evaluation objectives. We identified
    a material management control weakness for DFAS as defined by DOD
    Directive 5010.38. DFAS had established neither effective nor compliant
    bunker fuel bill disbursement internal controls. The report recommendations, if
    implemented, should improve management controls over the commercial bunker
    fuel payment and reconciliation processes. A copy of the report will be
    provided to the senior official responsible for management controls in the
    Defense Finance and Accounting Service.

    Adequacy of Management’s Self-Evaluation. DFAS officials did not identify
    the bunker fuel disbursement process as an assessable unit and, therefore, did
    not identify or report the material management control weakness identified by
    the evaluation.




                                       17
Appendix B. Summary of Prior Coverage

   During the last 5 years, the Office of the Inspector General, DOD, issued three
   reports that discussed bunker fuel operations and associated accounting systems.

   Inspector General, DOD, Evaluation Report No. 98-140, Wefense Hotline
   Allegation on Bunker Fuel Purchases at Naples, Italy,” May 28,199s. The
   report states that Navy ships purchased bunker fuel at Naples, Italy, from non-
   contract sources rather than from the available DEW contract source. As a
   result, the Navy paid at least $66,242 more than it would have if Navy ships
   had purchased the fuel from contract sources. The report disclosed a
   management control weakness relating to the Navy’s procedures in
   disseminating bunker fuel contract data, but it was not considered to be a
   materiaI management control weakness. The report recommended that the Navy
   establish effective communications that promptly distribute bunker fuel contract
   data to officials and organizations responsible for ordering bunker fuel for Navy
   ships. The Navy concurred with the recommendation and has established
   procedures to effectively communicate bunker fuel contract data within the
   Navy.

   Inspector General, DOD, Memorandum Report No. 95-262, “Bunker Fuel
   Operations,” June 29,1995. The report states that MSC was collecting and
   providing fuel consumption data to DESC in support of the continuation and
   establishment of bunker fuel contracts and the contracts were effectively used by
   DOD-controlled vessels. Further, the report disclosed there were no material
   management control weaknesses. The report did not contain any
   recommendations.

   Inspector General, DOD, Report No. 95-216, “Bunker Fuel Payments,”
   June 2,1995. The report states that DFAS overpayments to bunker fuel
   contractors were occurring because of management control weaknesses. As a
   result, DFAS overpaid contractors about $3.2 million in FY 1993. The report
   recommended that DFAS strengthen management controls over the payment
   process, consolidate payment offices, and collect the overpayments from
   contractors. Management concurred with the recommendations and, in October
   1995, consolidated 19 DFAS payment offices to a single office in Columbus,
   Ohio.




                                      18
Appendix C. Policy Requirements

   United States Code. Title 3 1, United States Code, Section 3521(b),
   establishes, subject to Comptroller General prescribed limitations, the authority
   for Government agency heads to implement statistical random sampling
   programs for the examination of vouchers in support of their certification and
   payment.

   OMB Policies. OMB Circular A-123, “Management Accountability and
   Control, n June 21, 1995, states that each agency head must establish controls
   that reasonably assure that assets are safeguarded against waste, loss, and abuse
   and that all revenues and expenditures are properly recorded and accounted for.
   The circular further states that Government management control standards shall
   include ensuring that appropriate authority, responsibility, and accountability
   are defined and delegated.

   OMB Circular A-127, “Financial Management Systems,” July 23, 1993, states
   that each Government agency shall establish and maintain a single, integrated
   financial system that complies with applicable accounting principles, standards,
   and related requirements to provide complete, reliable, and consistent financial
   management information and deter fraud, waste, and abuse of resources.

   OMB Circular A-125 “Prompt Payment,” December 12, 1989, authorizes
   Government disbursing officers to make payments without evidence that
   supplies have been received only when the individual orders do not exceed
   $25 $00.

   GAO Policies. GAO “Policy and Procedures Manual,” May 1993, Title 7,
   Chapter 6, Section 6.2, states that disbursements shall be supported by basic
   payment documents either in hard copy or machine readable source records
   which shall include purchase orders and receiving reports. It also states that
   appropriate preparation of disbursement vouchers includes assuring, apart from
   subsequent audit, that goods were ordered by authorized officials, that the goods
   have been delivered and accepted, and that the invoiced amounts are evidenced
   by receiving reports. The chapter further states that effective control over
   disbursements ordinarily requires the prepayment examination and approval of
   vouchers before they are validated for payment.

   DOD Policies. DOD Regulation 7000.14-R, “Financial Management
   Regulation,” February 1996, Volume 6, Chapter 2, defines the roles and
   responsibilities of DFAS and its customers on the preparation of financial
   reports and treatment of transactions associated with such financial reports. The
   Regulation states that customer organizations are responsible for ensuring the
   accuracy, completeness, timeliness, and documentary support for all data
   generated for input into the finance and accounting systems and financial
   reports. It emphasizes that customer organizations are responsible for ensuring
   that DFAS financial report amounts are consistent and reconcilable with
   management reports prepared by the customer organizations. The Regulation
   requires customer organizations to validate source data associated with their
   financial transactions.



                                       19
Appendix D. Evaluation of Allegations

    This appendix provides the results of our evaluation of the allegations made in a
    complamt to the Defense Hotline.

    Allegation 1. Government ships’ officers did not complete standard
    Government material ordering and receiving forms correctly when purchasing
    bunker fuel from DOD contract vendors.

   Evaluation Response. This allegation was partially substantiated. Ships’
   officers were not always completing ordering and receiving forms consistent
   with the DESC bunker fuel contract terms and conditions. We obtained the
   payment records for 1,257 bunker fuel bills representing payments made from
   September 1996 through January 1997. Of those records, 131 (10 percent) of
   the ordering and receiving forms were not completed correctly, resulting in late
   payments to vendors. The table below summarizes our analysis of late bunker
   fuel payments made to vendors from September 1996 through January 1997.

        Late Bunker Fuel Payments Arising From Incomplete Ordering and
                     Receiving Forms as of January 31,1997

                                 Late Payments                        Interest Paid
                  Number of      From Incomplete       Error Rate      OnrAe
    Month         Pane&               Forms            Ipercent)       Pawneats

    Sep. 1996       157                 26                 17         $ 174
   Oct.             260                 27                 10          1,059
   Nov.             283                 61                 22          5,683
   Dec.             304                  7                  2            657
   Jan. 1997      253                   lo                  4            988

     Total        1,257                 131                           $8,561

   Of those records, 131 (10 percent) of the ordering and receiving forms were not
   completed correctly. The forms contained missing or inaccurate data including:
   no authorizing signature by a government representative, fuel quantity missing
   or inaccurate, incorrect contract number, or incorrect fuel purchase date.
   Insufficient data were available to establish the precise cause of errors on each
   of the 131 bills. We did establish that purchasing organization guidance to
   ships’ officers was not always consistent with DESC bunker fuel contract
   clauses. For instance, a Navy instruction had not been updated to designate
   DFAS Columbus Center as the bunker fuel payment office, even though that
   change occurred in October 1995. Similarly, although DESC contracts state
   that Navy ships will usually issue written bunker fuel ordering forms to vendors
   within 24 hours of issuing verbal orders, the ships often do not provide written
   order forms until several days after verbal orders are issued. However, since
   90 percent of the ordering and receiving forms were properly prepared, we
   believe that confusion caused by inconsistencies in procedural guidance was not
   widespread. Also, the 10 percent error rate for the 5-month period reviewed




                                       20
Appendix D. Evaluation of Allegation


      resulted in total interest payments to vendors of only $8,561. Therefore, we
      concluded that, although the allegation had merit, it was not materially
      significant.

      During the evaluation, DESC officials began working with DFAS and bunker
      fuel purchasing organizations to reduce or eliminate confusion among ships’
      officers in order to increase compliance with contract ordering and receiving
      procedures.

      Allegation 2. The failure of ships’ officers to correctly fill out standard
      material ordering and receiving forms caused DFAS to pay bunker fuel vendor
      bills late.

      Evaluation Response. This allegation was partially substantiated. The Prompt
      Payment Act requires that DOD pay vendors no later than 30 days after receipt
      of a properly completed invoice. Otherwise, interest on late payments will
      accrue. Our review of the payment records for 1,257 bunker fuel bills paid
      from September 1996 through January 1997 showed that only 131 (10 percent)
      were paid late because ordering and receiving forms were not correctly
      completed. As discussed in allegation 1 above, the 131 late payments resulted
      in subsequent interest payments of $8,561 for the 5-month period. However, an
      exceptional effort by DFAS Columbus Center officials quickly rectified the
      majority of ordering and receiving form errors that result in late interest
      charges. During that period, DFAS disbursed more than $29 million to bunker
      fuel vendors. Therefore, we concluded that, although the allegation had merit,
      it was not materially significant.

      Allegation 3. Government ships’ officers were wasting DOD funds by failing to
      purchase bunker fuel from DOD contract vendors at those locations where
      contract fuel was available.

      Evaluation Response. This allegation was the subject of another evaluation
      and discussed in Inspector General, DOD, Evaluation Report No. 98-140,
      “Defense Hotline Allegation on Bunker Fuel Purchases at Naples, Italy,”
      May 28, 1998.




                                         21
Appendix E. Memorandum for Commander,
Defense Fuel Supply Center (now Defense Energy
Support Center)




                                                             April 26, r997

     MEMORANDUM    FOR COMMANDER,   DEFENSE FUEL SUPPLY CENTER

     SuBnCT:      Evaluation of the Bunker Fuels Acquisition     Process
                  (Project No. fLS-8006)


          We are conducting the subject evaluation to determine
     whether DOD organizations are processing bills for bunker fuels
     in a timely manner and effectively controlling bunker   fuel_
     contract fund disburselnexlta. As part of the emluation, we
     reviewed the Defense Fuel Supply Center (DPSC) procedures for
     providing oversight of the bunker fuel acquisition process. We
     are providing this memorandum on ucisting DPSC acqursition
     processes and on the implementation of the electronic. data
     interchange (ED11 vendor billing initiative known as MAGSTRIP for
     your information and use.
          This memorandum is not subject to the provisions of DOD
     Directive 7660.3, but is intended to provide management an
     opportunity to reevaluate its polices and procedures for
     acquiring bunker fuels.
          our evaluation has identified considerable bunker fuel
     customer agency confusion as to the requirement to use government
     controlled sales receipts to verify the accuacy   of Defense
     Finsnce end Accounting Service (DFAS) interfund bills. Although
     the DFAS Canter Columbus is prevalidating bunher fuel vendor
     invoices prior to paying each bill, the DFAS process does not
     include comparing vendor invoices against gave rnmeat controlled
     sales receipts. Therefore, customer agency reconciliation of DFZG
     interfund bunker fuel bills se-s    as the sole internal control
     essential to ensuring that disbursements made against DFSC
     accounts are accurate and not duplicated.   Each customer agency
     should develop procedures for collecting sales receipt data at
     the point of sale and using the receipt data to reconcile DFAS
     monthly interfund bills. To safeguard DOD managed funda, we
     suggest DFSC work with customer  agencies to ensure that they all
     implement sound reconciliation procedures. We further suggest
     DFSC use the randam sample audit program presently being
     developed to provide continuing visibility over the effectiveness
     and accuracy of the bunker fuel payment and billing processes.

          Our evaluation disclosed that the Military Sealift Couunand
     (MSC) is not collecting bunker fuel sales receipts from the point
     of sale, and therefore, is not capable of accurately reconciling
     DFAS interfund bills. We discussed this matter with MSC
     management and they agreed to develop procedures for collecting
     sales receipts and using them for reconciliation.  However, until
     MSC procedures are in place. we request DFSC pursue interim




                                          22
Appendix E. Memorandum for Commander, Defense Fuel Supply Center (now
                                       Defense Energy Support Center)




    measures co preserve the financial integrity of the newly
    designed MAGSTRIP system. MAGSTRSP billing eliminates the DFSC
    contract requirement for vendors to forward a government
    certified copy of fuel receiving documents to DFAS for their use
    in either pre- or post-payment Mlidation procedures. Instead,
    MAGSTRIP contract procedures allow the vendor to prepare and send
    bunker fuel invoices electronically to DFAS for payment without a
    governaenc certifying official reviewing the documen ts for
    accuracy prior to transmission. Consequently, DFAS is paying
    bunker fuel bills that often exceed $100,000 without a government
    official certifying the transmitted data as accurate.
         until MSC begins collecting copies of sales receipts -from
    the point of sale and providing post-payment certifications as co
    the accuracy of DFAS interfund bills, DFSC funds are being spent
    with neither pre-payment nor post-payment certification. This
    condition represents an unacceprable level of risk that bunker
    fuel billing errors or fraud will occur and go undetected.
    Because MSC is the largest DFSC bunker fuel customer with total
    bunker fuel purchases in excess of $40 million annually, we
    suggest that DFSC/MSC work with DFAS and take immediate action to
    ensure that MSC-certified receiving documents are collected and
    reconciled with interfund bills.



                          s-&Y7
                             Shelton R. Young
                                 Director
                       Logistics Support Directorate


    cc:   Deputy Director for Finance, DFAS-RQ
          Comptroller. Military Sealift Command




                                     23
Appendix F. Memorandum                              for Commander,
Military Sealift Command


                                    INSPECTOR GENERAL




                                                                  April   4, 1997

     MEMORANDUM    FOR CDMMANDBR,    MILITARY   SBALIFT COMMAND

     SUBJECT:     Evaluation of Bunker Fuels     Acquisition   Process
                  (Project No. XB-8006)


            We are conducting the subject evaluation to determine
     whether DOD organizations are processing bunker fuel bills in a
     timely manner and effectively controlling bunker fuel contract
     fund disbursements.     As part of the evaluation, we reviewed the
     Military Sealift Command (MC) and Defense Finance and Accounting
     Service (DFAS) procedures for reconciling DFAS monthly
     transaction   reports  (known   as interfund bills) against government
     source documents to ensure that interfund bills are accurate.        We
     had some concerns with the HSC reconciliation procedures for
     bunker fuel purchases.      Managers  have agreed to implement
     corrective action.

          This memorandum is not subject to the provisions of DoD-
     Directive 7650.3, but, is intended to provide management
     information on the need for timely implementation of corrective
     action regarding its reconciliation procedures for bunker fuel
     bills.

          In October   1995,  the DFAS Columbus Center (DFAS-Columbus)
     became the DOD central paying office    for bunker fuels purchased
     from Defense Fuel Supply Center contract vendors.     Duet0   the
     lack of a DOD-vide accounting system that would allow DFAS-
     Columbus to automatically and guickly match vendor bunker fuel
     invoices with MSC sales source data, a tvo-phase reconciliation
     process becaae necessary.     In the first phase, vendors send a
     copy of a government certified receiving document along with
     their invoice directly to DFAS-Columbus.     Upon receipt, DFAS-
     Columbus verifies that contract information and unit prices are
     correct and pays the vendor.     In the second phase, DFAS-Columbus
     sends an interfund bill to purchasing agencies notifying them of
     the details of each payment made on their behalf.     The purchasing
     agencies are then, in accordance vith accepted accounting
     standards, responsible to match the monthly interfund billing
     data against their own receiving records to ensure there are no
     errors; there are no duplicate bills for the same transaction;
     and that certified receiving documents sent to DFAS-Columbus were
     not altered.    Conceptually, this two-phase system is sound and
     satisfies internal management control principles.




                                          24
Appendix F. Memorandum for Commander, Military Sealift Command




     The USC is not currently collecting certified receiving
doouments on bunker fuel purchases from the point of sale   to use
in reconciling the monthly DFAS-Columbus interfund bill. As a
result, MSC is unable to verify that the fuel quantity billed in
a particular transaction is accurate. In lieu of sales receipts
MSC is using historical fuel consumption averages to predict how
much fuel might be consumed for a given distance and comparing
that estimate against the actual quantity billed.   Existing MSC
procedures do not provide for adequate analysis of the interfund
billing process or adequate controls over bunker fuel contract
purchases.

     In response to our concerns, MSC comptroller managers have
agreed to establish procedures to collect point of sale receipt
data that confirm   the exact quantity of fuel acquired, use that
confirmation data to reconcile the monthly interfund bills, and
notify DFAS-Cdlumbus of differences in quantities billed and
amounts paid.   To reduce the risk of funds being incorrectly
disbursed, MSC data collection procedures and policies currently
being developed should be completed and implemented as soon as
possible.

     We will continue to monitor the USC corrective actions on
these issues during our subject evaluation.    If you have any
questions or comments regarding this memorandum, please contact
Mr. John A. Gannon, Evaluation Program  Director, at (703) 604-
9427 or Lieutenant Colonel Thomas P. Toole, Evaluation Project
Manager, at (703) 604-9426.




                          Shelton R. Yofing  v
                              Director
                   Logistics Support Directorate


cc:   Comptroller, Military Sealift Command
      Director, Defense Finance and Accounting
        Service-Columbus Center




                                25
                         Appendix G. Memorandum for Director, Defense
                                        Finance and Accounting Service




ships' bills in their entirety directly from an MSC account. MSC
later submits batches of Transaction By Others (TBO) reports to
Dims - c01umbus - In rurn, DFAS-Columbus uses TEO .report
information to debit the DFSC bunker fuels revolving fund account
for the amount of bunker fuel purchased and to credit the MSC
account for the same amount. To us, this is an unnecessary
accounting procedure. Sending MSC charter ship fuel bills
+ivectlv
_--        to DF_?E-Columbusfor =qxent
                                - _     will eliminate. the seed for
the MSC-and DFAS to process TBO transactions for bunker fuel. We
propose that MSC charter ships send their invoices directly to
DFAS-Columbus for payment. If charter ship invoices include non-
fuel charges that the customer agency must pay, DFAS should
subsequently forward a copy of the billing information to the
appropriate MSC office for payment of non-fuel charges.
     Our evaluation has identified considerable confusion in the .
customer agencies as to the responsibility to reconcile DFAS
interfund bills. As a result, a material MSC management control
weakness exists in this area. We suggest that Headquarters, DFAS
develop specific guidance for customer agency reconciliation of
interfund bills. A cousaonperception is that an accurate and
consistent match between agency sales receipts and DFAS incerfund
bills is not required. Some Naw finance offices   allow a
5 percent variance between invoices and interfund bills without
declaring a mismatch. Others use an informal estimate as criteria
for identifying mismatches. MSC offices generally do not collect
receipt data and are, therefore, unable to identify mismatches.
Our position is chat customer agencies should collect sales
receipt data from the point of sale and use that data (or
automated products developed from that data) to reconcile DFAS
interfund bills. Because bunker fuels transactions can exceed
$400,000 each, even a 5 percent variance would allow a
S20.000 mistake or fraudulent claim to go undetected. A change
initiated by Headquarters, DFAS to the FMR that clarifies
customer roles and responsibilities and emphasizes the importance
of a thorough account reconciliation process would significantly
reduce confusion and eliminate a management control weakness.

     Finally, we suggest that Headquarters, DFAS work with DFSC
to streamline the approval process for non-contract (open market)
bunker fuel invoices. In April 1996, DFSC provided DFAS a data
base that edits and electronically validates information
contained in vendor bills against pertinent contract data
requirements. However, since the automated validation process is
contingent on a contract number, DFAS is not able to use the
automated system for open market transactions until a contract
number is assigned. DFSC currently requires DFAS-Columbus to
send a facsimile of a vendor's invoice to Headquarters, DPSC so
that a contract number can be assigned and returned. Although
the process has improved since the start of our evaluation,




                                 27
Appendix G. Memorandum for Director, Defense
Finance and Accountiue Service




       further improvements are possible. We suggest that DPAS request
       DPSC to provide automated open market transaction approval so
       that processing and payments are not delayed.
            In response to our concerns, Headquarters. DFAS managers
       have agreed to convene a working group to address these three
       process improvement opportunities. We will continue to monitor
       DPAS actions on these issues during our subject evaluation. If
       you have any questions or couusentsregarding this memorandum,
                                          Evaluation Program Director,
                                          or e-mail address
       jgannon@dodig.osd:mil; or Lieutenant Colonel Thomas P. Toole,
       Rvaluation Project Manager, at (7031 604-9426. (DSN 664-9426). or
       e-mail address ttool~odig.osd.mil.



                                 Shelton R. Yo/ung v
                                     Director
                           Logistics Support Directorate
       cc:   Commander, Defense Fuel Supply Center
             Commander, Military Sealift Command




                                         28
Appendix H. Memorandum for Director,
Defense Finance and Accounting Service


                                        INSPECTOR     GENERAL
                                       DEPARTMENT    OF OEFEtUSE
                                         4ooAfwYt4AwlmvE
                                       ARLNGm.     VFIGNA  22202




                                                                                    December 4, 1997

     MEMORANDUM         FOR DIRECTOR.        DEFENSE        FINANCE   AND   ACCOUNTING
                            SERVICE

     SUBJECT?    Evaluation   of Bunker Fuels Acquisition    Process (Project No. 7LB-8006)



             The objective of the evaluation was to determine whether DoD organizations are
     processing bunker fuel bills in a timely manner and effectively controlling bunker fuel contract
     fund disbursements.   As part of the evaluation, we reviewed the Defense Finance and
     Accounting Service (DFAS) procedures for validating vendor billing data to ensure that
     disbursements were accurate and timely.     A management control issue surfaced during our
     evaluation that warrants your attention. This memorandum is intended to provide management
     with information to facilitate DFAS implementation of process improvements.

              Our evaluation showed that DFAS-Columbus      Center was unable to confirm      the
     quantity of bunker fuel received by Defense Fuel Supply Center (DFSC) customers           prior to
     paying vendor fuel invoices, some of which exceeded 3200,000.      Also. bunker fuel      customers
     were not using material receipt data to conduct precise post-payment reconciliations      of DFAS
     bills. ‘As a consequence, DOD is paying bunker fuel invoices worth more than $50         million
     annually, without confirming that vendor invoices match receipts.

              In February 1997, in accordance with DFSC contract requirements, contract bunker
     fuel vendors commenced electronic invoice transmissions to the DFAS-Columbus         Center
     bunker fuels payment office. At that time, DFSC provided each vendor the electronic
     invoicing capability under a DFSC program known as Magstrip.        The Magrtrip program
     consists of DFSC-provided    hardware and software that vendors use to electronically transmit
     invoices to DFAS for payment. As implemented, the Magstrip program does not permit
     government certification of the receipt data contained in vendor transmissions to DFAS.
     Concurrent with the implementation of Magstrip, DFSC eliminated the contract requirement
     for vendors to forward copies of certitied material receiving reports to DFAS-Columbus
     Center.

             The DFAS headquarters letter, ‘Termination     of-Tests of Paying Invoices under S2500
     without Receiving Reports,” October 9. 1997, terminated DFAS test initiatives associated with
     paying invoices without evidence of a receiving report in the payment office because the tests
     did nut meet DOD Genenl Counsel approval.       Although the DFAS-Columbus        Center bunker
     fuels payment office was not participating in the test initiative, they were paying bunker fuel
     invoices without ev*idence of a proper receiving report.




                                                  29
Appendix H. Memorandum for Director, Defense
Finance and Accounting Service




                We consider the high dollar amount of the bunker fuel payments to be a high-risk area
        that should be subjected to a greater level of management control. We suggest that DFAS
        headquarters work with DFSC to develop a method to electronically transmit mutually agreed
        upon material receipt data from the points of sale to DFAS-Columbus Center. For example,
        the data neexlonly include sufficient information for DFAS-Columbus Center to confirm the
        accuracy of vendor invoices and, as a minimum, include contract number, ship identification,
        date received, fuel grade. and quantity received. Receipt information may be tmnsmitted by
        radio, telephone, fax, electronic mail. or various combinations of those methods as warranted
        by customer operating environments and existing data collection practices. For security
         reasons, the means to transfer material receipt data must remain under government control
         during tram&r to DFAS.

               We request you provide written comments to us on this memorandum and your plans
        for implementing the suggested corrective action by December 3 1. 1997.
        Our points of contact are Mr. John A. Cannon. Evaluation Program Director. at
        (703) 604-9176 (DSN 664-9176). email <jgannon@dodig.osd.mil>        . or Lieutenant Colonel
        Thomas P. ‘Toole, U.S. Air Force. Evaluation Project Manager. a~ (702) 604-9177 (DSN
        664-9177). cmail < ttoole@dociig.osd.mil>.




                                         _L5lii&fl/~~,
                                               Shelton R. Young
                                            Director. Readiness and
                                          Logistics Support Directorate

         cc: Commander.    Defense Fuel Supply Center




                                                     30
Appendix I. Memorandum                                         from Defense Finance
and Accounting Service                                    e




                  DEFENSE     FINANCE       AND        ACCOUNTING        SERVlr,t

                               1931   JEFFERSON        DAVIS   WIGWWAY
                                 ARLlNGTON.       VA 22240-529      I



                                                                                    FEB2?!9@


  DFAS-HQ/FCC


        MEMORANDUM    FOR DIRECTOR, READINESS AND LOGISTICS SUPPORT
                            DIRECTORATE, OFFICE OF THE INSPECTOR GENERAL,
                            DEPARTMENT OF DEFENSE

       SUBJECT:      Evaluation of Bunker Fuels Acquisition                Process       (Project
                     &Jo. 71,B-A0061


            We share the DoDIG concern about the control of receipt
       information used to certify payments under the Bunker Fuels
       Magstrip process.  The current Magstrip process allows certified
       receipt information to be transmitted by the fuel provider.   The
       GAO Policy and Procedures Manual states in Title 7, Chapters 6
       and 7 that the government is free to take advantage of electronic
       data systems to improve the financial accounting system as long
       as "appropriate auditing and accounting controls are maintained."
       The transmission of receipt information by the fuel provider
       requires review to determine consistency with GAO Policy and
       Procedures Manual Title 7, Chapters 6 and 7.

            We also request the DoDIG assess the economic                     merits      of the
       current Magstrip process.




                                              Brigadier General, USA
                                              Director for Finance




                                                  31
Appendix J. Memorandum for Assistant
Comptroller General, General Accounting Office


                                         U’JSXCTOR GENERAL
                                         OEPARTMENTOFDQENSE
                                          4OOARMYN*WORVE
                                        ARIUGTON. VmGlNA     22202


                                                                                        March 17. 1998

     Mr. Gene L. Dodaro
     Assistant Comptroller General
     Accounting and information Management Division
     U.S. General Accounting Office
     Washington, DC 20548

     Dear Mr. Dodaro:

              The purpose of this letter is to request your assistance in the form of an interpretation
     of the required internal controls relating to payment processing contained in Title 7, ‘Fiscal
     Procedures,” of the &jQ Policy and Procv                      for Guidance of Federal Aeen&
     (the Manual). Specifically, we have three questions: (1) Is it an acceptable procedure for
     disbursing officers to authorize payment of invoices without first reviewing a valid statement
     or report from an authorized employee attesting to the receipt and acceptance of goods or
     services? (2) Is it acceptable for disbursing officers to authorize payment of invoices using
     receipt and acceptance evidence maintained by the vendor in the form of a delivery verification
     signed by an Government off&al? and, (3) Is it acceptable to implement an alternative process
     of completing receipt verification and acceptance after payment based on audits of a
     statistically selected number of invoices in lieu of conducting prepayment verification?

             An ongoing Inspector General (IQ, DOD, evaluation indicates that in certain DOD
     organizations, there are two different interpretations of the Comptroller General’s guidance as
     it relates to the three questions above. The pertinent reference for the first question is Title 7,
     Chapter 6, Paragraph 6.2b, of the Manual, which states that the preparation of disbursement
     documents must include the essential step of assuring that goods or set&es ordered have been
     delivered, accepted and evidenced by receiving reports. Defense Finance and Accounting
     Service (DFAS) interprets Paragraph 6.2b to mean that actual receiving statements or reports
     need not be sent to the disbursing office for disbursing officer review prior to authorizing
     payment. DFAS asserts that it is acc.+ble for the disbursing officer to complete the
     vexifitition and acceptance process using facsirniks of receiving statements or reports or using
     other electronic messages containing receiving report information. We disagree. Our
     interpretation is that disbursing officers should be provided hard copies of the actual receiving
     statements or reports or provided access fo certified, machine-readable, electronically
     transmitted receiving report data prior to authorizing payment.

             Regarding our second question above, DFAS interprets Paragraph 6.2b of the Manual
     to mean that disbursing officers can accept vendor-provided, original receiving statements or
     reports to complete verification and acceptance. Our interpretation is that only authorized
     Government employees should transmit the receiving statements or reports directly to the
     DFAS disbursing officer. We disagree with the DFAS premise and foresee a loss of control




                                                   32
                           Appendix J. Memorandum for the Assistant Comptroller
                                             General, General Accounting Office




                                                                                               2

over receiving documents that could preclude detection of errors or mischarges. We do not
consider vendors, although on contract with the Government, to be authorized to act as
Government employees for the purposes of transmitting receiving statements or reports.

         The pertinent reference for our third question is Title 7, Chapter 7, Paragraph 7.4~.
which states that ‘with the proper application of available technology, it is possible to perform
required prepayment audits without assembling the source records from other locations. ” This
paragraph further states that when agencies apply available technology to the prepayment audit
process, they should “implement techniques that will provide reasonable assurance that data in
electronic messages are complete, correct, and authorized.”      DFAS interprets paragraph 7.4c
to mean that the disbursing officer need not assemble receiving statements or reports prior to
authorizing payment as long as postpayment reconciliations and statistically selected
postpayment invoice audits are conducted to provide reasonable assurance that previously paid
invoices were accurate. DFAS asserts that strong postpayment controls that can be expected to
identify and rectify errors or instances of fraud are reasonable assurance LOthe disbursing
ofticer that data provided will be correct. We disagree with that interpretation.    We interpret
this paragraph to mean that agencies may implement electronic technologies that allow the
electronic transmission of cenified receiving statements or reports from the point of sale 10 the
 DFAS disbursing office. We further interpret the requirement for providing the disbursing
officer reasonable assurance that data is correct to mean that reasunable assurance should be
 obtained from prepayment review of certified electronic reccrving statements or reports and nof
 from postpayment reconciliations and audits. In a related matter, the DOD has submitted
 proposed Icgislation which would permit the use of posr-payment receipt sampling techniques
 in lieu of prepayment validation of receiving reports or statements.

        We request an interpretation of Title 7 and your review and opinion on the facts
presented, so that we may complete our ongoing evaluation.      If you have any que-stionr
regarding this memorandum, please conmcaftMr. John A. Gannon, Evaluation Program
Director, ar (703) 604-9176 (email jgannon@dodig.osd.mil)      or Lieutenant C010nel Thomas P.
Toole, U.S. Air Force, Evaluation Project Manager, at (703) 604-9177 (email
troole@dodig.osd.mil).

                                           Sincerely,




                                      Robert J. Lieberman
                                   Assistant I~~sptc&orGencrd
                                           for Auditing




                                              33
Appendix K. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer (Accounting Policy)
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander and Chief of Engineers, Army Corps of Engineers

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Deputy Chief of Naval Operations (Logistics)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. Transportation Command
  Commander, Military Sealift Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
   Commander, Defense Energy Support Center
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                         34
Appendix K. Report Distribution


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
   National Security and International Affairs Division
      Technical Information Center
Director of Finance and Procurement, U.S. Coast Guard
Inspector General, Department of Transportation

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                         35
Part III - Management Comments
Defense Fuel Supply Center (now Defense Energy
Support Center) Comments
                                                                                                         Final Report
                                                                                                         Reference




      S-CT:         DOD Comaact Ship Fuels (Bunker Fds)           Aquisition   Process, XB-8006

                                                                                                           Revised
                                                                                                           Page 5




      In our mow to ao okctromic commcrt~ lod comm&l                payment coviroamcnt, wx DO
      loneor rquirwl vendor, to submit a bardcopy receipt WC rely oo our customen, 4x0
      receive tbc fuel, to ensue that receipo am prnperiy artifird sod cootroUcd_ We also rdy
      oo tbot some mdpclulcr dab and receluilintion pr0ce.wb hlQll our cantnet
      rdmioistitioa    and fiioocial muqemmt         rwpoaribilitia. We agreed tlmt reconciliition
      of roccipt data fo our costomcn’ iotafund bills would involve oar CW~OIIICII        iaatnal
      control procedures    to cnsurctbkrtitcnu purrbased by os ud sold to oar cutomers via
      direct vendor deliwry was bIlled by our vendors. Siocc DFAS is DFSC’r Gruacial agent,
      ami u DaD 400025-7-M prrrccibu,         rcconciliatiom  by billed olllrcr arc to be accomplished
       in ucotdatca with the interfund rcporciae and ckaring ptoccdnm oftbc rppropriati
       Se&e, we ibkd to formolly roquat chat DFhS take the lud in ckriQin~ the guidnrcr
      and cnsurin~ the a&s data cdlmtion process is odequote.

      AdditionoIly, to safcguwd both oar and our customers hods. YC qretd ro ioitiatc a
      postpoymcat wmpiinp pho (100% of tbc univcne initially) to cnsur~ that paymenta    were
      only de npiwt r&i iovoiw. By employing this additional proadurr, wc
      scknowled~ed that the art&cl receipt ccrtificUi~n aad interfund bill reconeiiiadon
      pro-       are two areus that ban tk pntutial for problems.

      INTERPIALMANAGEMCNT                   COmOL       W-&SST%                NOWXhNr


      Action   Offiar(~):   Robert    McClellur     (Mansgeae8t      Ccarml)
                            rvfil,   Earp   (-kbniCml   Expert)
      mvicwiag of6cw:       la&en Mulimo, MMP
      Cootdinatioa:          Elaiac Park. DDAX. 767-6264




                                                                  38
                       Defense Fuel Supply Center (now Defense Energy Support Center) Comments




   Final Report
   Reference




Redirected, revised,
and remmbered as
l.c. and 1.d. Added
Recommendations
1.a. and 1.b.

Revised and
renumbered as
Recommendation 2.a.




Revised and
renumbered as
Recommendation 2.b.




                                                            39
Defense Fuel Supply Center (now Defense Energy Support Center) Comments




          DEPOSlTIONZ
          (X)ECDforNoJ      isDmnkr31,1997.    ECDforNo.2mdNo.3   ishhrch31.199&
          ( x ) Action lmn Numbu 4 b caaSidued Ccqlnc.




                                                    40
Military Sealift Command Comments


                                 DEPARTMENT OF THE NAVY
                              ccx#wNDERkallARY SEuJFf COHrUND
                                WASiUNGlCt4   NAVY YARD   BLW    210
                                         WlYSlREETSE
                                   wAsHmDcp306-




     From:     Comptroller, Military Sealift Command
    To:        Inspector General, Department of Defense

     Subj:     EVALUATION OF BUNKER FUELS ACQUISITION PROCESS
               (Project No. 7LB-8006)

    Ref:       (a) DODIG memo of 4 Apr 97

    1. Reference. (a: states that the Military Sealift Command is nor:
    currently collecting certified receiving documents on bunker fuel
    purchases from the point of sale to use in reconciling the
    monthly DFAS-Columbus interfund bill. Recognizing this
    deficiency, MSC established a working group in March 97 to
    determine the best method to reconcile the monthly interfund
    bills. The working group's proposed solution is to require all
    ships to include the amount of fuel bunkering on the departure
    reports. The departure report will be used to validate the
    quantity of bunker fuel billed to COMSC on the interfund bills.
    The reports will be submitted to a centralized location in the
    Accounting Division at COMSC Comptroller. COMSC will notify
    DFAS-Columbus of any differences in quantities received and
    billed. A Plan of Action and Milestone (POACM) to refine the
    validation method is being developed and will be forwarded to
    your office no later than 30 September 1997.

     2. While MSC agrees that the billings to MSC must be validated,
     COMSC believes the primary responsibility for the audit of
     invoices resides at DFAS-Columbus, the paying office, and should
     be made prior to actual payment. DFAS-Columbus should receive
     all support documentation. The current register (chargeable) is
     often inaccurate, incomplete and slow in processing, causing
     extensive follow-up and added labor costs to the process. These
     conditions makes it difficult for COMSC to perform post-audits of
     the invoices.

     3.      COMSC   POC, Ms. Iris Y. Davis, 202 685-5978.




                                                          RICBARDS. BAYNES
                                                          Asst    Dcp Commander for Bus Ops




                                                41
Defense Finance and Accounting Service
Comments                                                                                        Final Report
                                                                                                Reference




                    DEFENSE   FINANCE        AND      ACCOUNTING        SERVICE
                               IS3 I   JLFF’ERSON     DIVIS   HIGHWAY
                                 &RLINGTON,         VA 2224-5291

                                                                          OcT     71997

  DFAS-HQ/FCC



        J4EWORANDUM FOR DEPUTY DIRECTOR FOR AUDIT FOLLOWDP, OFFICE                   OF   THE
                          INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

        SUBJECT:     Preparation of Response to DoDIG Draft Report, "DOD
                     Contract Ship Fuele (Bunker Fuels) Acquisition
                     Process,m dated August 22, 1997 (project No. 7LB-8006)

                                                                                                Revised and
                DFAS concurs with all recommendations.                                          redirected

             My point of contact is Mr. Mickley, DFAS-HQ/FCC,
        703 607-1198.




                                                Brigadier General, USA
                                                Deputy Director for Finance




                                                    42
Evaluation Team Members


This reportwasprepared by the Readiness and Logistics Support Directorate,
Ofke of the Assistant Inspector General for Auditing, DOD.

Shelton R. Young
John A. Gannon
Lieutenant Colonel Thomas P. Toole, U.S. Air Force
Jeffxey Lee
David Leising
